<html>
<title> - OVERSIGHT OF FIRSTNET: STATE PERSPECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               OVERSIGHT OF FIRSTNET: STATE PERSPECTIVES

=======================================================================

                                 HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2017

                               __________

                           Serial No. 115-71
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                         


       Printed for the use of the Committee on Energy and Commerce  
      
                     energycommerce.house.gov
                     
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-974                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>                   
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     2
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4

                               Witnesses

Michael Poth, CEO, First Responder Network Authority.............     6
    Prepared statement...........................................     9
    Answers to submitted questions...............................    92
Christopher Sambar, Senior Vice President, AT&T..................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   105
John T. Stevens, Statewide Interoperability Coordinator, State of 
  New Hampshire..................................................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................   117
Brian J. Moran, Secretary of Public Safety and Homeland Security, 
  State of Virginia..............................................    32
    Prepared statement...........................................    34
    Answers to submitted questions...............................
Robert Legrande, II, Founder, The Digital Decision...............    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................   123

                           Submitted Material

Statement of Verizon, submitted by Mr. Doyle.....................    78
Letter of October 23, 2017, from Governor Sununu of New Hampshire 
  to fellow governors............................................    82
Executive order of Governor Sununu...............................    84
Statement of the Competitive Carriers Association................    86
Statement of the International Association of Fire Chiefs........    88

 
               OVERSIGHT OF FIRSTNET: STATE PERSPECTIVES

                              ----------                              


                      WEDNESDAY, NOVEMBER 1, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:40 a.m., in 
room 2322 Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Guthrie, Kinzinger, Bilirakis, Johnson, Long, Flores, Brooks, 
Collins, Cramer, Walters, Costello, Doyle, Clarke, Loebsack, 
Eshoo, Engel, Matsui, McNerney, and Pallone (ex officio).
    Staff present: Ray Baum, Staff Director; Kelly Collins, 
Staff Assistant; Zachary Dareshori, Staff Assistant; Sean 
Farrell, Professional Staff Member, Communications and 
Technology; Chuck Flint, Policy Coordinator, Communications and 
Technology; Adam Fromm, Director of Outreach and Coalitions; 
Elena Hernandez, Press Secretary; Tim Kurth, Senior 
Professional Staff, Communications and Technology; Lauren 
McCarty, Counsel, Communications and Technology; Alex Miller, 
Video Production Aide and Press Assistant; Evan Viau, 
Legislative Clerk, Communications and Technology; David 
Goldman, Minority Chief Counsel, Communications and Technology; 
Jerry Leverich, Minority Counsel; Jourdan Lewis, Minority Staff 
Assistant; Lori Maarbjerg, Minority FCC Detailee; Jessica 
Martinez, Minority Outreach and Member Services Coordinator; 
and Dan Miller, Minority Policy Analyst.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn [presiding]. The Subcommittee on 
Communications and Technology will now come to order.
    I recognize myself for 5 minutes for an opening statement.
    I want to welcome everyone to this, as we continue our 
committee's oversight of FirstNet, the authority charged with 
deploying a nationwide interoperable broadband public safety 
network. The First Responder Network Authority was an important 
fixture of the Middle Class Tax Relief and Job Creation Act of 
2012.
    There is a lot of work that has been done by this committee 
and others, and it has gone into reviewing the recommendations 
from the 9/11 Commission on how to better prepare our first 
responders in times of crisis. Interoperability has long been a 
challenge for our state and local authorities. In the wake of 
the recent natural disasters and, of course, the terror attack 
that took place in New York City just yesterday, we have 
realized how incredibly important that it is that not only we 
do this, but that we get this right. There is no room for error 
when you are facing a disaster and need these communications.
    I thank the witnesses for appearing today.
    Mike Poth is the CEO of FirstNet. He now has both the 
privilege and the pressure of this huge undertaking. We know 
that it is going to be successful, and we look forward to 
making certain that the implementation is smooth and that the 
continuation is one of success.
    Chris Sambar is a Senior VP at AT&T, and his company is the 
winner of FirstNet's RFP to gain access to 20 megahertz of the 
700-megahertz spectrum.
    Our friends from the states include John Stevens, who is 
the New Hampshire Statewide Interoperability Coordinator, and 
Brian Moran, who is the Virginia Secretary of Public Safety and 
Homeland Security. Their unique perspective of what states are 
thinking will illuminate how to avoid a top-down approach that 
could lead to failure.
    Rob LeGrande consults now, but was the CTO for Washington, 
D.C., in building out a public safety broadband network. I am 
sure that he is going to be able to help us sort out issues 
that the states and localities face, and perhaps can even give 
us a little bit of a more granular view on how to address 
challenges that are in our rural and tribal areas, and how we 
work to calculate their decisions.
    As you all know, this past September, FirstNet delivered 
its network plans to the combined states and territories. Part 
of what brings us here today is the December 28th deadline from 
that notice for those states and territories to elect whether 
they will accept the plan. Under the statute, states are 
permitted to opt into their respective state plan or opt out of 
the FirstNet network and build and maintain radio access 
networks, or RANs, from other providers, but still meet 
interoperability requirements set by the FCC.
    I think it is also worth pointing out that, while AT&T will 
build the FirstNet RAN in opt-in states or territories at no 
cost to each jurisdiction, public safety entities will still be 
responsible for paying subscription cost and end-user device 
expenses. And they are not required to subscribe to the 
FirstNet service. We must ensure that choice remains a 
paramount principle as the states and territories proceed with 
their decisonmaking and their implementation.
    While there has been some debate on schedules and fees, 
subscriber levels, device availability, and whether the network 
will be able to deliver mission-critical-level services, I know 
the panel today can help us sort through all of these issues to 
further reaching this goal.
    At this time, I would yield the balance of my time to Mr. 
Lance.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to the committee's continuing oversight of 
FirstNet, the authority charged with deploying a nationwide, 
interoperable broadband public safety network. The First 
Responder Network Authority was an important fixture of the 
Middle-Class Tax Relief and Job Creation Act of 2012. A lot of 
work at this committee went into reviewing the recommendations 
from the 9/11 commission on how to better prepare our first 
responders in times of crisis. Interoperability has long been a 
challenge for our state and local authorities, and in the wake 
of the recent natural disasters they have faced, its importance 
is as clear as ever.
    I thank the witnesses for appearing today. Mike Poth is the 
CEO of FirstNet. He now has both the privilege and the pressure 
on this huge undertaking being a success, but I can assure 
folks in this room we intend to be part of its successful 
implementation. Chris Sambar is a senior vice president at 
AT&T, and his company is the winner of FirstNet's RFP to gain 
access to 20 MHz of the 700 MHz spectrum. Our friends from the 
states include--John Stevens, who is the New Hampshire 
Statewide Interoperability Coordinator, and Brian Moran, who is 
the Virginia Secretary of Public Safety and Homeland Security. 
Their unique perspective of what states are thinking will 
illuminate how to avoid a top down approach that could lead to 
failure. Rob LeGrande consults now, but was the CTO for 
Washington, DC in building out a public safety broadband 
network. I'm sure he can help us sort out issues states and 
localities face, and perhaps can even be a bit more granular to 
address challenges those in rural and tribal areas have to 
calculate in their decisions.
    As you all know, this past September, FirstNet delivered 
its network plans to 53 states and territories. Part of what 
brings us here today is the December 28th deadline from that 
notice for those states and territories to elect whether they 
will accept the plan. Under the statute, States are permitted 
to opt-in to their respective State Plan, or opt-out of the 
FirstNet network and build and maintain radio access networks, 
also referred to as RAN, from other providers but still meet 
interoperability requirements set by the FCC. I think it's also 
worth pointing out that while AT&T will build the FirstNet RAN 
in ``opt-in'' states or territories at no cost to each 
jurisdiction, public safety entities will still be responsible 
for paying subscription costs and end-user device expenses, and 
they are not required to subscribe to the FirstNet service. We 
must ensure that choice remains a paramount principle as the 
states and territories proceed with their decision-making and 
implementation.
    While there has been some debate on schedules of fees, 
subscriber levels, device availability, and whether the network 
will be able to deliver mission critical level services, I know 
the panel today can help us sort through all the issues to 
further everyone's goal of making this a transparent and 
successful process.

    Mr. Lance. Thank you very much, Madam Chair.
    Before I begin, let me say that our prayers are with the 
victims of the terrorist attack in New York yesterday, the 
worst loss of life in such an attack since 9/11.
    Our 9/11 first responders from all over the tri-state area 
responded to the unprecedented attack on the World Trade 
Center. Several issues with their communications system, 
including interoperability and resiliency, hindered the 
coordination of these fine public agencies. The equipment and 
networks used by the various departments that responded from 
all over the area, including New Jersey, were in many cases 
incompatible. These issues were recognized by the 9/11 
Commission.
    As New Jersey was one of the first states to opt into 
FirstNet, I am interested in learning how our state and others 
can work with AT&T and the providers to prevent future 
challenges with interoperability and public safety agencies, as 
well as improving the resiliency and security of our public 
safety networks.
    Thank you for being here today to discuss this important 
topic.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    At this time, Mr. Doyle, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair. Thank you for holding 
this hearing, and thank you to the witnesses for appearing 
before us today.
    FirstNet and the National Public Safety Broadband Network 
have come a long way and made great progress in the 5 years 
since the program was established. FirstNet has designated its 
partner in AT&T. States have received their buildout plans, and 
25 states and two territories have already opted to accept 
FirstNet's plans. By the end of the year, all states will have 
to decide whether to opt in or opt out of the FirstNet plans.
    I am pleased with the progress that FirstNet and AT&T have 
made, and I hope this program continues to perform well as more 
states opt in and the buildout of FirstNet begins in earnest.
    Now I know a lot of hay has been made recently about the 
opt-out process and the costs for states to choose that route. 
States looking into opting out seem overwhelmed by the 
potential punitive cost and the risk they take on in building 
and managing their own network. Companies seeking to get states 
to opt out see this as a barrier to their entry into this 
market and a stumbling block to meaningfully engaging with 
states.
    To my mind, the cost and risks placed on the states for 
opting out are steep because building and maintaining these 
networks is a hard and risky endeavor. Without access to tens 
of billions of dollars necessary to build out a dedicated 
network of their own, states that opt out need to gamble on a 
private partner's ability to leverage private capital, utilize 
a relatively small amount of shared spectrum, and undertake the 
buildup of a hardened multibillion dollar communication 
network. And they need to do all of this in a timeframe that is 
competitive with FirstNet, using technologies and systems that 
are fully interoperable.
    To my mind, the monetary risk is so great because this is a 
hard problem and the likelihood of failure is high. More to the 
point, the risk to the public at large and first responders is 
high if a state fails to meet its obligations. If building this 
network wasn't hard, Congress wouldn't have needed to create 
FirstNet; first responders wouldn't have died on 9/11 because 
of communication failures, and the 9/11 Commission would not 
have recommended the creation of a national interoperable 
public safety communications system.
    Building this network and deploying the service is a 
serious challenge and we need serious solutions. States are 
free to make their own choices, but they need to understand and 
accept the risks. It is something I would encourage governors 
contemplating an opt-out to strongly consider.
    I have also seen reports of competitors seeking to sign up 
individual first responders complaining about the requirements 
of creating interoperable services with FirstNet. Let me say, I 
am strong believer in the value of competition, but I also 
believe that, if other providers want to offer services to 
first responders, they need to be fully interoperable. Lower-
cost services and devices can't fix the problem first 
responders face if they are not interoperable. We are still 
seeing this issue today in Texas, Florida, Puerto Rico, the 
Virgin Islands, and the wildfires that affected the areas of 
the West Coast.
    Americans are lucky and grateful that so many people 
volunteer to help when disaster strikes, and first responders 
come from far and wide to help. What we need to do is ensure 
that they have access to the best available interoperable 
technologies. If a competitor can provide that, great. If they 
can't and they are putting equipment in people's hands that 
isn't interoperable, that is liable to create a problem rather 
than solve one.
    I look forward to the testimony of our witnesses and the 
discussion here today.
    With that, Madam Chair, if there is no one on my side that 
would like my time, I will yield what I have left to Mr. 
McNerney.
    Mr. McNerney. Well, I thank the ranking member for 
yielding.
    The recent wildfires in my home State of California shed 
light on the critical role of our nation's first responders and 
the need for first responders to be effectively communicating 
and receiving information during these emergencies. It is 
essential that we have a resilient and redundant interoperable 
broadband network, so that our first responders are equipped to 
carry out their duties during natural disasters.
    But it is also important that this network be secure and 
able to withstand attacks from the various actors. We cannot 
afford for cybersecurity to be an afterthought in these 
scenarios because the consequences could be fatal.
    I look forward to the hearing and learning about FirstNet, 
what FirstNet is doing and the progress that it has made so 
far.
    And I yield back.
    Mr. Doyle. Thank you.
    Madam Chair, I would like to introduce for the record an 
op-ed by Montgomery County's chief of police entitled, ``For 
police, first responder communications network is much needed 
good news''.
    And also, I would like to introduce the written testimony 
submitted by Verizon.
    Mrs. Blackburn. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. And as we permit this, I would just like to 
say I noticed that there are several first responders in the 
audience today, and we recognize your presence and we thank you 
ever so much for your service. You are, indeed, on the 
frontlines.
    Chairman Walden is not here. Does anyone on the Republican 
side seek his time?
    [No response.]
    No one is seeking that time. Ranking Member Pallone is not 
here. Anyone else seeking time?
    [No response.]
    No one else is seeking time. Everybody has got a sugar coma 
going on, I know. Yes, too much of that candy.
    [Laughter.]
    And we do thank all of our witnesses for being here today. 
We are grateful for your preparation, for your opening 
statements that were submitted in a timely manner, for your 
insights into what is before us.
    As you can see, this is something where there is bipartisan 
agreement. Doing our due diligence in conducting oversight is 
important. So, we welcome each of you.
    I previously recognized you. Michael Poth, who is the CEO 
of FirstNet; Chris Sambar, who is the Senior VP at AT&T for 
FirstNet Business Solutions, Global Public Sector; Rick Kaplan, 
who is the General Counsel and Executive VP of the National 
Association of Broadcasters. John Stevens is the Statewide 
Interoperability Coordinator for the state of New Hampshire, 
and Robert LeGrande, who is the former CTO of Washington, D.C., 
now a consultant.
    Again, we appreciate that you are here. We will begin our 
panel. Mr. Poth, you are recognized for 5 minutes.

   STATEMENTS OF MICHAEL POTH, CEO, FIRST RESPONDER NETWORK 
  AUTHORITY; CHRISTOPHER SAMBAR, SENIOR VICE PRESIDENT, AT&T; 
JOHN T. STEVENS, STATEWIDE INTEROPERABILITY COORDINATOR, STATE 
 OF NEW HAMPSHIRE; BRIAN J. MORAN, SECRETARY OF PUBLIC SAFETY 
AND HOMELAND SECURITY, STATE OF VIRGINIA; AND ROBERT LEGRANDE, 
               II, FOUNDER, THE DIGITAL DECISION

                   STATEMENT OF MICHAEL POTH

    Mr. Poth. Great. Thank you, Chairman Blackburn, Ranking 
Member Doyle, and members of the subcommittee. Thank you for 
inviting me to testify today.
    I am Mike Poth, the Chief Executive Officer of FirstNet, 
and I am pleased to be here to provide an update and progress 
on this important initiative for our nation's first responders.
    FirstNet is committed and accountable to this committee and 
Congress, but, first and foremost, to public safety. And it is 
the mission of serving public safety that drives my team toward 
exceeding the goals that you set out for us when you 
established FirstNet.
    I, too, would also like to thank the members of public 
safety who are in attendance today. We really appreciate their 
focus and commitment.
    We have faced an enormous task in developing this system 
over the past few years. Nothing like this has ever been done 
before, but thanks to the support of Chairman Walden, Ranking 
Member Pallone, and all of you here today, we are closer than 
ever to providing public safety what they have long asked for, 
a dedicated network that will save lives.
    We have spent the better part of 3 years consulting with 
our partners in the states and territories and tribal nations 
to ensure that we have gathered the needs of local first 
responders. This is a very complex technical, operational, and 
logistical effort to meet the needs and expectations of public 
safety.
    Since our contract signing that Chairman Blackburn attended 
a little over 7 months ago, significant progress has been made. 
I am happy to report that AT&T has met or exceeded all of its 
required deliverables. There is a clear line of sight and plan 
for a successful implementation in the coming years, depending 
on the final determinations of the remaining states completing 
their due diligence on their options.
    We have now established a binding contractual mechanism to 
ensure the successful buildout in the 56 states and territories 
of a nationwide public safety broadband network and the 
financial sustainability to support this effort for the next 25 
years.
    It is important to note that we are holding AT&T 
accountable while ensuring that we support their efforts. Their 
success is critical in order for this to work. If they fail, 
then we have to go back to the drawing board.
    It is important to remember and give context that, through 
this contract, AT&T is already contractually obligated to build 
out the system in the 56 states and territories to the plan 
that has been submitted to each of those states. This includes 
spectrum lease payments, adoption targets, disincentive and 
termination fees, if they fail to meet the terms of the 
contract. Only in those states that decide to pursue building 
their own radio access network is that obligation lifted from 
AT&T. FirstNet, along with our board of directors, the 
Departments of Commerce, Justice, Homeland Security, and the 
Office of Management and Budget continue to work alongside AT&T 
to ensure that they meet all the contractual requirements.
    Over the last 3 years, FirstNet has gone to great measures 
to make sure that all the states and governors fully understand 
the opportunities, risks, and challenges to opting out. It is 
important to note, however, that FirstNet will do everything 
possible to make sure that an opt-out is successful. This 
process is involved, as failure, as has been previously 
mentioned, at the national, state, or local levels is not an 
option for our first responders.
    We have delivered the final plans to the states and 
territories. Twenty-eight governors have approved and opted in, 
and another state will actually be announcing its opt-in choice 
this afternoon. This is truly an exciting time while the 
remaining 27 governors have 58 days left to make their final 
determination to either accept the FirstNet/AT&T's solution or 
assume the risks associated with opt-out.
    It is, again, important to note that FirstNet has been open 
and transparent in every step, ensuring that everyone who is 
involved in this process has as much information as possible. 
We built in new steps as needed that allowed the states and the 
business communities to step up and become true partners. 
Ultimately, each state and governor have all the information 
possible to make an informed decision.
    The public and first responders need us to be successful. 
Lives will depend on this network. This is the standard against 
which we will be measured. When you look at the recent storms 
that brought devastation to Texas, Florida, and Puerto Rico, 
and the inconceivable tragedies that took place in Las Vegas 
and now New York, communications are a vital part of any 
response and recovery.
    We are proud of what we have achieved thus far, but we also 
know that we have a long way to go to deliver to public safety 
what it truly needs and deserves. This has never been done 
before. And FirstNet will continue to work with each state and 
territory to get it right for them and for public safety.
    Thank you again, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Poth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Sambar, you are recognized for 5 minutes.

                STATEMENT OF CHRISTOPHER SAMBAR

    Mr. Sambar. Thank you.
    Chairman Blackburn, Ranking Member Doyle, members of the 
committee, I am Chris Sambar, AT&T Senior Vice President. I am 
responsible for AT&T's fulfillment of the FirstNet project, a 
special opportunity for AT&T and its dedicated employees to 
demonstrate their continued commitment spanning two centuries 
to public service and public safety.
    I am proud to affirm to this committee that AT&T is on 
track to deliver on its commitments and has, in fact, met the 
first set of milestones identified in the FirstNet contract, as 
Mr. Poth mentioned. We have also launched the FirstNet 
application ecosystem, including an application store for 
America's first responders, as well as the first ever developer 
program geared specifically for first responders.
    And now, again, as Mr. Poth mentioned, we have over half of 
the states and territories having made the decision to opt into 
FirstNet. AT&T is delivering on the promise of a dedicated 
interoperable network that will give first responders in those 
states and territories the technology they need to effectively 
communicate and collaborate across agencies and jurisdictions.
    Before FirstNet, first responders frequently lacked the 
ability to communicate with each other and to coordinate 
incident response activities across agencies and jurisdictions. 
Relying on over 10,000 radio networks as well as the same 
commercial networks that Americans used today, first responders 
have been hampered by a lack of interoperability and network 
congestion during times of significant emergency.
    The recent unprecedented sequence of natural disasters and 
public safety incidents over the past couple of months have 
reinforced the wisdom of the widespread bipartisan consensus of 
Congress in 2012 to establish the First Responder Network 
Authority, FirstNet, as an independent authority within NTIA, 
to provide emergency responders with the first nationwide high-
speed broadband network dedicated to public safety.
    AT&T is honored to have been chosen to build and manage the 
FirstNet network. We committed to spend about $40 billion over 
the life of the FirstNet contract to build, operate, and 
maintain the network. AT&T also committed to connect the first 
responder network to our best-in-class telecommunications 
network, valued at over $180 billion, with a wireless network 
reaching 99.6 percent of the U.S. population.
    Moreover, AT&T submitted a plan that ensures that local 
commanders in opt-in states can adjust the access in times of 
emergencies to the services, featuring priority and preemption, 
allowing others such as bus drivers during pre-storm evacuation 
or medical personnel after the storm has passed to have access 
to the same services in time of need. Priority access means 
just that. In times of network congestion, our first responders 
will have communications precedent for primary users, be able 
to preempt other users off of the AT&T and FirstNet network.
    In earning the FirstNet contract, AT&T demonstrated its 
particular competencies with respect to world-class national 
disaster recovery. The national disaster recovery team at AT&T 
recently demonstrated its value in preparation for and during 
the aftermath of the devastating hurricanes that recently hit 
Texas, Florida, Puerto Rico, the U.S. Virgin Islands, and, most 
recently, the California wildfires.
    We helped, and are continuing to help, restore 
communications in these areas by deploying an array of 
equipment, including portable cell sites, cell on light 
trucks--we call those COLTs--generators, charging stations, 
evacuee centers, and emergency communications vehicles. We used 
ships and chartered cargo flights to deliver this equipment to 
our NDR personnel in Puerto Rico. In northern California we 
were able to move mobile restoration assets in quickly and 
place them in areas where fire had destroyed our communications 
equipment and where first responders needed them most.
    In the meantime, there are significant and immediate 
benefits to states that opt into the FirstNet network. Opting 
in eliminates long-term risks associated with funding, 
building, and for the next 25 years maintaining a network that 
interoperates with the FirstNet network. Public safety entities 
in states or territories that opt in can purchase, at 
competitive rates, service with key features such as quality of 
service, priority access, and preemption. Notably, preemption 
over the AT&T LTE network for primary users is expected by this 
year's end.
    In conclusion, I would like to reiterate that Congress 
intended for FirstNet to provide the public safety community 
with what it demanded for years, a single interoperable public 
safety network. That network that AT&T is building for opt-in 
states and territories brings security, priority, and 
preemption.
    And I look forward to answering any questions you have 
today.
    [The prepared statement of Mr. Sambar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Stevens, you are recognized, 5 minutes.

                  STATEMENT OF JOHN T. STEVENS

    Mr. Stevens. Madam Chair, good morning. Members of the 
committee, good morning. I certainly appreciate the opportunity 
to speak here today.
    Let me preface my remarks by saying that there is no 
greater advocate for FirstNet than the State of New Hampshire. 
As a former state police commanding officer, what often would 
keep me up at night was knowing that troopers, police officers, 
firefighters, and EMS personnel were in the field in some areas 
with little or no communications. So, when I came back to state 
service approximately 10 years later, many of the 
interoperability communications issues still existed. In my 
first conversations with FirstNet, approximately about 3 1A\1/
2\ years ago, New Hampshire was going to receive a 
significantly small footprint. As one of the last 
recommendations of the 9/11 Commission, FirstNet was created 
and Congress appropriated $6.5 billion to build a nationwide 
network, a nationwide, dedicated first responder network, not a 
national network.
    Even though FirstNet was under an edict to develop in rural 
areas, we recognized early on that there would be many areas of 
the country that would be underserved. Having the opportunity 
to see FirstNet maps that illustrated limited coverage, and 
looking at New Hampshire maps, that certainly the northern part 
of the state was not being addressed, we looked at possible 
other opportunities.
    Knowing the information and being familiar with FirstNet 
advertised timelines of 90 days for a governor to make a 
decision, and 180 days to develop an RFP, award an RFP, and 
create an alternative plan that would need to be submitted for 
approval, the timeline that was provided was unrealistic and 
unattainable for New Hampshire and probably many other states.
    With that in mind, the State of New Hampshire, through the 
Statewide Interoperability Executive Committee and its Data 
Communications Working Group, began to develop an RFP in July 
of 2015. That, in and of itself, turned the industry upside 
down. Industry people were taking every opportunity to dismiss 
New Hampshire and its intentions for putting the RFP on the 
street in December of 2015.
    On September 7th, 2016, the governor and council awarded a 
no-cost, no-obligation contract to Rivada Networks. Why? 
Because the proposal that was submitted was so intriguing that 
it could not be ignored. From September 2016 to September 2017, 
the State of New Hampshire along with Rivada Networks developed 
an alternative state plan that was delivered to Governor Sununu 
on or about the same date as the FirstNet/AT&T state plan was 
delivered. Today we are the only state in the country that has 
an alternative plan in place.
    I mentioned early in my testimony that there was no greater 
advocate than New Hampshire because it is an officer safety 
issue and it means increased capability to provide services to 
our citizens and visitors. So, it is unclear to us why 
FirstNet, NTIA, and now AT&T, would wish to make the reality of 
an opt-out decision so onerous and difficult.
    At the beginning of last month, October 2017, New Hampshire 
SEIC made a unanimous recommendation to opt out. Why? Because 
the alternative plan was far superior to the FirstNet/AT&T plan 
that was delivered in regards to coverage and price. We are 
operating in good faith and we understand that there are 
regulatory permissions that need to be reached. However, based 
on what we know and what we have been dealing with, we feel 
threatened by policy and procedure, not by law. We will not 
allow this opportunity to fail, and we have every confidence in 
the proposed network that is being proposed.
    Was that the intent of the law that created FirstNet or was 
the intent to provide to the first responder an unprecedented 
opportunity to communicate in the most difficult of situations? 
It is unfortunate, from our perspective, that in some ways 
FirstNet seems to have lost its intended mission.
    When we first looked at this, we looked at this as a win/
win situation. New Hampshire would secure an investor to build 
the infrastructure at no cost to FirstNet, where FirstNet could 
invest the $6.5 billion elsewhere, and then, New Hampshire 
would enter a fair and reasonable leasing agreement with 
FirstNet for the utilization of 20 megahertz of 700 spectrum.
    We have done our due diligence. In regards to due 
diligence, I would be remiss in my responsibilities if, in 
fact, we did not go down this road to try to create an 
alternative plan.
    FirstNet demands our transparency, but fails to be 
transparent themselves. AT&T says it wants to work with the 
state, but says it will only negotiate pricing when the state 
opts in. NTIA says that it may take up to 2 years to approve an 
alternative plan.
    I applaud Governor Sununu and all the work that has been 
accomplished in New Hampshire, which has also provided 
direction for many states who are weighing in on their options. 
When the scales seem to be tipped, when pressure is enhanced, 
and when there are unprecedented obstacles, which can all be 
seen as threatening states to opt in, we believe it is worthy 
of review.
    In conclusion, New Hampshire has done its due diligence, 
and our only mission is to make FirstNet successful in New 
Hampshire.
    Thank you.
    [The prepared statement of Mr. Stevens follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you.
    Mr. Moran, 5 minutes.

                  STATEMENT OF BRIAN J. MORAN

    Mr. Moran. Well, good morning, Madam Chairman Blackburn, 
Ranking Member Doyle, members of the subcommittee. On behalf of 
Governor Terry McAuliffe, I would like to thank you for this 
opportunity to discuss FirstNet and our mutual desire to equip 
our first responders with the interoperable communication 
capabilities necessary to respond to all hazards.
    Governor McAuliffe is proud that Virginia was the first 
state in the nation to opt into FirstNet. Virginia decided to 
opt in in July after a thorough review in order to provide 
public safety subscribers with the benefits of priority service 
at no cost to the Commonwealth and to proceed with the buildout 
of Virginia's portion of the National Public Safety Broadband 
Network. We also viewed the decision to opt in as a way to 
promote competition within the public safety communications 
marketplace in order to reduce costs and drive innovation for 
public safety agencies.
    The option to opt out was thoroughly reviewed through in-
depth engagement with our public safety stakeholders across the 
Commonwealth. But the unknown costs of network construction, 
maintenance, and operation were neither feasible nor determined 
to be in the best interest of Virginia.
    Virginia has long been a leader in the field of public 
safety interoperable emergency communications. Our success is 
based on a belief that first responders and emergency 
communications experts should lead the effort to identify 
solutions, as they are the ones who best understand the unique 
threats we face and the resources needed to respond.
    I am joined here today by local public safety professionals 
from Virginia who have been instrumental in promoting 
interoperability and guiding our decision to opt in. Fire Chief 
Richard Bowers from Fairfax County is leading the effort to 
leverage the benefits from our decision to opt in, and I know 
Loudoun Chief Brower and others from Arlington County are here 
as well.
    Fairfax Fire now has interoperability between their public 
safety radio system and broadband with a push-to-talk 
application. When Fairfax Fire deployed to Houston to support 
Hurricane Harvey response efforts, they were able to utilize 
priority service.
    Terry Hall from York County serves as the Chair of the 
Statewide Interoperability Executive Committee. Through the 
SIEC, they have facilitated a collaborative multidiscipline 
process to engage our local governments.
    Virginia's unique geography, critical infrastructure, and 
emerging threats require the Commonwealth's public safety 
community to be prepared for a wide range of threats. Since the 
attacks at the Pentagon on 9/11, the goal has been, and still 
is today, to ensure continued interoperable communication among 
our first responders.
    We saw the importance of this this past June when 
Representative Scalise and his colleagues were victims of a 
horrible violent attack in an Alexandria ballpark. Again, in 
August, our Commonwealth was attacked when a large 
demonstration of white supremacists and neo-Nazis and 
counterprotesters descended on the city of Charlottesville for 
a rally that resulted in the death of Heather Heyer and two 
state police troopers.
    It is tragic situations like these that highlight the 
importance of equipping our first responders with the tools 
they need to save lives. We believe that our decision to opt in 
creates the opportunity to realize the ultimate goal of 
creating a dedicated, safe, secure, and reliable network for 
public safety in the least risky manner.
    Moving forward, we will continue to work collaboratively 
with FirstNet and AT&T to maximize the benefits of the network 
for the Commonwealth's public safety community. Essential to 
this collaborative effort is ensuring adequate coverage and 
reliability, especially in rural areas. We must ensure FirstNet 
and AT&T prioritize mission-critical voice and enhanced 
location capabilities in order to protect our men and women in 
uniform.
    As more states determine their best way forward, I know 
that the public safety community will continue to provide 
feedback to Congress, FirstNet, and AT&T. Virginia's decision 
to opt in marked another significant step forward as we advance 
interoperable emergency communications and public safety, and 
we look forward to the work ahead.
    Thank you again, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Moran follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. LeGrande, 5 minutes.

                STATEMENT OF ROBERT LEGRANDE, II

    Mr. LeGrande. Good morning, Chairman Blackburn, Ranking 
Member Doyle, and members of the subcommittee.
    My name is Robert LeGrande, and I am the former Chief 
Technology Officer with the District of Columbia government. I 
am a former program executive for the National Capital Region's 
Interoperability Program. In this role, I led the District's 
Land Mobile Ready upgrade and, also, led the development of the 
nation's first citywide 700-megahertz wireless broadband 
network for first responders. This network was considered a 
model for the nation and served as a testbed how broadband 
applications can be shared among public safety agencies.
    I left the D.C. Government in 2007 and formed The Digital 
Decision. My firm leverages lessons learned from the District, 
the Land Mobile Ready, as well as the 700-megahertz wireless 
broadband deployments, to help states, locals, and even 
commercial customers prepare to deploy public safety broadband 
communication networks.
    I appreciate the committee's ongoing efforts to address 
this critical issue, and I thank you for the opportunity to 
present my views on FirstNet. It is important to remember that 
FirstNet was created to address the communications problems 
that have plagued public safety for many years, especially the 
lack of interoperability, which we have spoken about so many 
times already, among our first responders.
    Along with my public safety colleagues, I believe that a 
dedicated public safety broadband network was what was needed 
to address the public safety requirements. In discussions with 
this subcommittee prior to the legislation being passed, I 
referenced my previous experience when working with a Seawolf 
Class nuclear attack submarine. No one would disagree that the 
Navy and our fleet is America's first line of defense. By the 
same token, no one should disagree that our first responders 
are our last line of defense, including their communication 
systems.
    Now, we would never consider a U.S. Navy and a Carnival 
Cruise Line partnership in order to cover the operating cost of 
a nuclear attack submarine. So, why would we rely on anything 
less than a fully-funded dedicated public safety broadband 
network for our first responders? Well, of course, that was not 
possible, given the limitations of the available funding. That 
would have been $50 billion or more. But Congress was able to 
provide FirstNet, and they did a good job of putting this 
together, with the spectrum and funding to support the 
development of a public safety broadband network and establish 
provisions to encourage the private sector involvement.
    Now, while many public safety officials, including myself, 
fought for a true dedicated public safety broadband network, 
what we actually got from FirstNet is access to AT&T's network 
with public safety features and functions along with it. Now, 
while that may have been necessary, and it was, given the 
limitation of funding, it also means that we must look at this 
network and its competitive options for states to make sure 
that they have viable means to opt out from this commercial 
offering, because it is truly a commercial offering.
    Now, unfortunately, I do not believe, as Mr. Stevens had 
mentioned earlier, that the opt-out requirements established 
under FirstNet adequately preserve the states' rights to make 
their own decisions and consider competitive options for the 
network providers. This is especially troubling, given that 
half the FirstNet spectrum came from state and local 
governments. That sacrifice in spectrum makes state and local 
governments investors in FirstNet.
    At a minimum, states should have the same ability as 
FirstNet to develop a public-private partnership. States should 
be able to choose their preferred network provider and use that 
provider's core to serve its public safety users as long as 
that network core complies with industry standards and is 
interoperable with AT&T's network. If states are required to 
use a network core provided by AT&T, then that means that AT&T 
must provide service to their public safety users.
    This is not the kind of opt-out provision that public 
safety had in mind. States should not be subjected to stricter 
limitations or harsher penalties or fees than AT&T. Competition 
is the reason why the United States has the most advanced 
commercial LTE networks in the world, and competition must 
continue to ensure public safety benefits from the tremendous 
innovation and advances in communications. If there is one 
thing that the public safety communications industry needs, it 
is competition at every level.
    FirstNet decided that a public safety broadband network, a 
dedicated one was not achievable, but, instead, chose a 
commercial solution. FirstNet should, therefore, ensure that 
this approach is implemented on several key principles.
    First, it should support vibrant and fair competition. It 
should include open and nonproprietary devices and applications 
that are available to all providers. It should ensure that 
interoperability for all networks--I'm sorry, let me say that 
again. It must ensure interoperability for all networks that 
satisfy a minimum public safety standard. It should create 
incentives, not penalties but incentives, for private sector 
involvement that encourages broader industry support, and it 
should ensure a level playing field for the states' opt-out 
process.
    With that, I really appreciate the committee's time, and I 
look forward to answering the questions.
    [The prepared statement of Mr. LeGrande follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back. That concludes 
all of our opening statements, and we are going to move to the 
question-and-answer portion.
    For all of our colleagues that are here today, Mr. Doyle 
and I have discussed how we want to stay right to that 5-minute 
questioning. And if you get to the end of your 5 minutes and 
you have got a question, if you will submit it for a written 
response, that will help us to be mindful of everyone's time 
and finish the hearing prior to votes being called.
    So, I recognize myself for 5 minutes for questioning.
    Mr. Sambar, I want to come to you first. Cybersecurity and 
cybersecurity measures are something we continue to talk about 
here in this committee. So, as you are looking at this network 
and the buildouts and the integration, do you all have a strong 
cybersecurity plan? What type of encryptions or firewalls do 
you have that will prevent some malicious cyberattacks?
    Mr. Sambar. Thank you, Chairman. I appreciate the question.
    I will start with Mr. LeGrande's point that he just made on 
interoperable cores. I think that feeds right into your 
question.
    Part of this is a nationwide interoperable network. Part of 
the strength in that nationwide interoperable network is 
reducing what I call seams or vulnerabilities as much as 
possible. When you try to have cores interoperating and force 
interoperability between cores, you introduce seams. That is 
why the interpretation of the law that was passed, the RFP that 
was issued, and the FirstNet Authority, as I have said publicly 
recently, core-to-core interoperability is not something that 
they are interested in because they don't want to introduce 
those vulnerabilities. So, that is really the first step in 
cybersecurity.
    Next, beyond that, we are building a separate public safety 
core. So, to say that this is going to be traffic on our 
commercial core is not correct. From a technical standpoint, we 
are building a separate interoperable public safety core 
network, which means all of the traffic for first responders 
that flows across this network will be on that core, not on our 
commercial core. So, that is the next level of security. That 
core network will be encrypted from end to end, and we have 
designed that encryption, at the direction of the FirstNet 
Authority, to comply with various state and federal 
requirements.
    And then, the last piece of this--well, there is actually 
another one. I could probably go on for 10 minutes, but I want 
to----
    Mrs. Blackburn. No, I have only got 5. That is OK.
    [Laughter.]
    Mr. Sambar. I understand. So, I will respect your time.
    The next piece is the device itself in the first 
responder's hand. So, we do self-certification on all of our 
devices, but the FirstNet Authority has a lab in Boulder, 
Colorado, where they will also be certifying the devices.
    Then, the applications on the device, oftentimes 
vulnerabilities are introduced to a device through the 
applications on a device. That is why we have set up a public 
safety app store specifically for public safety--you have to 
authenticate to get into this app store; it is not open to the 
public--where we can validate the security and functionality of 
those applications.
    And then, the last piece of this, the Security Operations 
Center. So, AT&T operates a Global Security Operations Center. 
We are standing up a separate Security Operations Center, 
roughly 100 people that will do nothing but 24 hours a day, 7 
days a week, 365 days a year, monitor the traffic on this core 
network, the first responder traffic.
    So, as you can see, multiple steps that we are taking to 
ensure cybersecurity is job 1 on this network.
    Mrs. Blackburn. OK. Mr. Stevens, I want to come to you and 
Mr. Moran.
    There are several of us on this panel that have rural 
areas, and I am sure Mr. Loebsack is going to talk to you about 
some of this. And when we look at the expectation of buildout 
schedules, you talked a little bit about the timeline on the 
RFP end. So, on the expectation of the buildout schedule for 
these rural and remote areas, as you are reviewing proposals, 
do you think that we should be confident they are going to be 
able to make these schedules? Should we be apprehensive? Should 
we change how we are reviewing and monitoring some of this 
ourselves? What do you think the expectation is here? And is 
FirstNet being helpful to the process or not?
    Mr. Stevens. The State of New Hampshire certainly is a 
rural state and it is divided by a number of different 
sections. The southern part of New Hampshire is considered 
really metropolitan Boston. We have a major rural area in the 
western part of the state and in the northern part of the 
state.
    When we originally looked at the maps that were being 
provided by FirstNet early on in the process, much of the 
northern part of the state was ruled out as far as development 
was concerned. In fact, FirstNet said to us at that point in 
time that primarily they would be looking at building out from 
Manchester and Nashua, which are the two largest cities in New 
Hampshire.
    Now, since that time, we have had a number of meetings in 
regards to buildout and price. I will have to say that the 
meetings that we had with AT&T and FirstNet were extremely 
constructive, and we felt that the buildout was much larger 
than we had originally sought from the original plans. However, 
what we were able to ascertain from our alternative plan was 
the alternative plan was providing for us statewide coverage 
from the northern part of New Hampshire to the southern tip and 
east to west.
    Mrs. Blackburn. Thank you.
    Mr. Poth, I am going to submit a question for the record 
for you on NTIA. I want to get some answers there.
    Mrs. Blackburn. And, Mr. LeGrande, I will submit one to you 
having to do with your work as state and local authorities. We 
have got a couple of points there.
    The gentleman is recognized for 5 minutes.
    Mr. Doyle. Thank you.
    Mr. Moran, you look like you are a much younger, better-
looking version of former Congressman Jim Moran. Are you 
related to him?
    [Laughter.]
    Mr. Moran. I am not sure. Will you accept my comments based 
on my answer?
    [Laughter.]
    Mrs. Blackburn. We could tell by your voice the minute you 
started to talk.
    Mr. Doyle. Welcome. Tell Jim we say hello.
    Mr. Moran. Will do.
    Mr. Doyle. Mr. Poth, if a state opts out and contracts with 
a third party and the network fails or fails to meet its 
obligations, what are the risks and what are the obligations to 
FirstNet and other states?
    Mr. Poth. That is a great question, and thank you for that. 
As you point out, if a state that has opted out at any path 
along the way of that 25-year period is unable to continue 
because of the contractor, or for whatever reason, we are going 
to instantly start working with that state to try to minimize 
the impacts to that state and, most importantly, to public 
safety in that state, to reconstitute the network and try to 
move it forward.
    As you mentioned in your opening statement, this is a very 
complicated network with a lot of moving parts. And if a state 
that opts out--and we are fully supportive of that--has those 
problems, then we are going to have to figure out ways to 
recover costs. FirstNet will not have the cost. AT&T is not 
obligated to put any money into that to help recover the cost 
in that state that has run into the problem. So, we are going 
to be working with the state on how to quickly minimize.
    If they have, for example, received some grant funding, 
from NTIA that hasn't been completely expended, that may be an 
opportunity to use some of those funds to help get the network 
back to a point where it is, once again, nationwide and 
operable.
    Mr. Doyle. Thank you.
    Mr. Stevens, I understand Rivada has conducted projects 
here and around the world and has some valuable experience, but 
I also understand that Rivada is not currently operating a live 
radio access network in the United States or, for that matter, 
anywhere else in the world. I understand they made you an offer 
you couldn't refuse, but I am just curious, are you a little 
bit nervous contracting with a company that doesn't currently 
operate a network anywhere in the world?
    Mr. Stevens. Well, based on the information that we have 
been provided through the alternative plan, and with the 
safeguards that we have enacted through the negotiation with 
Rivada as far as having performance and surety bonds in place, 
we feel that, as we move forward and actually develop a service 
contract, if, in fact, there should be a decision in New 
Hampshire to opt out, then we feel that New Hampshire is 
confident that we would be able to continue and provide a 
statewide application to FirstNet for all our first responders.
    Mr. Doyle. Thank you.
    Let me ask Mr. Sambar and you, Mr. Stevens, we have seen, 
with the recent devastating hurricanes in Texas, Florida, 
Puerto Rico, the Virgin Islands, as well as what has happened 
in California with the wildfires, that communications can go 
down during disasters because of a lack of electricity and for 
other reasons. I would think a state would want to be assured 
that the FirstNet network is supported by a carrier with the 
wherewithal and the experience to recover communication 
services during disasters.
    Let me ask you, what experiences does Rivada have in 
restoring communications during hurricanes and fires and other 
natural disasters of this magnitude? And I would ask Mr. Sambar 
the same question.
    Mr. Stevens. Are you asking me, sir?
    Mr. Doyle. Yes, sir.
    Mr. Stevens. The only thing that I am familiar with in 
regards to communications that were set up based on a natural 
disaster was Rivada's commitment to the State of Louisiana 
after Katrina.
    Mr. Doyle. Mr. Sambar?
    Mr. Sambar. So, from AT&T's standpoint, Congressman, you 
are probably aware of the last four hurricanes, all the 
restoration efforts. I could go into details of tornadoes, 
wildfires in California. We have extensive experience. Our 
natural disaster recovery program has been funded at over $600 
million over the past 20 years. So, we have a significantly 
large program.
    And I will note, just in the Q3 earnings that AT&T released 
last week, we noted a 2-cents-per-share earnings hit or 
earnings cost to AT&T based on the recent disasters just in the 
quarter. That equates to roughly $200 million in impact to 
AT&T. So, obviously, a large company with the wherewithal to 
absorb impacts like that is probably very important to this 
program, and we think we are that company.
    Mr. Doyle. Thank you.
    Madam Chair, I see, in the spirit of what we are trying to 
accomplish here, that I will not ask my other questions, but 
submit them for the record for answers.
    Mrs. Blackburn. Quick learners.
    [Laughter.]
    Mr. Doyle. Thank you.
    Mrs. Blackburn. Mr. Lance, you are recognized, 5 minutes.
    Mr. Lance. Thank you very much, Chair.
    Mr. Poth, as I mentioned in my opening statement, 
interoperability issues faced by the first responders on 9/11 
was a significant factor in the creation of FirstNet. The law 
allows state and local public safety agencies to make their own 
communications decisions, regardless of the state's opt-out 
decision. Consequently, it is likely that some public safety 
agencies will continue to use other network providers beside 
AT&T. Does FirstNet intend to establish agreements with other 
providers to enable interoperability across multiple networks 
and, if not, how would that have an impact on public safety 
communications?
    Mr. Poth. So, the current system will allow the 
interoperability. So, another carrier provider to public 
safety, those devices will be able to talk to a FirstNet/AT&T 
device. We are not going to be pursuing contractual 
relationships with other providers for that, since the 
interoperability is a requirement and it is a standard.
    We are also, as part of our statute, requiring open 
standards for the devices and applications, as Mr. Sambar 
mentioned earlier, for public safety. So, we think that that 
addresses the needs if a public safety agency all the way down 
to a local firefighter decides that the better solution for 
them is to go with another solution set other than the FirstNet 
one.
    Mr. Lance. Thank you.
    Mr. Sambar, would you like to comment on that?
    Mr. Sambar. Yes. Thank you, Congressman.
    So, I would say, to make it brief, there are international 
standards which govern the wireless industry around the world 
called 3GPP standards. We have committed to FirstNet Authority, 
which they asked us to commit to, that we will maintain those 
standards. We have for the past 40-plus years in the wireless 
industry and we will continue to do so.
    It is the reason that, when I text you on your phone, 
regardless of what provider you have, we can get a text across 
with no problem. We can send an email. We could talk to each 
other. And it works that way around the world.
    We will continue that. We are very interested in open 
interoperable.
    Mr. Lance. Thank you.
    And, Mr. LeGrande, could you please comment on what the 
public safety implications would be in the case of failure to 
enable interoperability?
    Mr. LeGrande. Well, we need no, unfortunately, looking 
further than what happened in New York. That was tragic.
    And when I started my work here in Washington, D.C., 
believe it or not, in 2001 we didn't have any public safety 
communications at all in the WMATA tunnel systems. That was a 
program that I led--I think there is a member of the fire 
department here--proudly, with Chief Ramsey and Chief Thompson.
    I think it is important to note that what Mr. Sambar was 
referring to with regards to interoperability and 3GPP 
standards, yes, carriers have interoperability that they do 
every day. There are partners that AT&T has around the world. 
Core-to-core interoperability is what they do as a standard 
practice.
    What I am advocating for is to make sure that we have 
established a swim lane internationally and nationally how 
carriers operate, and that we should not alter that because we 
have a commercial system that we are leveraging. We are not 
leveraging a dedicated network only for public safety. It is a 
shared network with the public. Now it is segregated at the 
core, as he mentioned, but it is certainly shared at the RAN, 
which is the lower part of the architecture.
    I don't want to be too technical. I don't want to go too 
far on this answer. But it is important that we continue to 
allow the carriers who exist to fight for public safety's 
business. The bottom line, the biggest barrier of entry--and I 
have been around the country talking to folks, sir, and Frank 
Gianetti in Pittsburgh, Pennsylvania, where I am from--the 
biggest barrier to entry is cost. And the best way to drive 
down cost and to drive up innovation is competition. And, oh, 
by the way, to ensure that the carriers follow the way they 
have already done business, which is to interoperate through 
those standards, and core-to-core is a part of that.
    Mr. Lance. Thank you very much, Mr. LeGrande.
    And, Chair, I yield back 50 seconds.
    Mrs. Blackburn. There you go.
    Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair. I have abused the 5-
minute rule in the past. I promise I won't do it this time. 
Thank you very much. I readily admit that.
    [Laughter.]
    I really appreciate this hearing today.
    Mr. Moran, I had the same thoughts--thank you very much for 
being here today--about your relation.
    I do greatly appreciate FirstNet's vigilance to ensure that 
rural areas of the country gain access to the nationwide public 
safety broadband network, including by specifying a 15-percent 
geographic requirement for the prime contractor to partner with 
existing rural telecom providers. And we have a lot of those 
folks in Iowa. We do all over rural America.
    So, to Mr. Sambar and to Mr. Poth, where is AT&T in its 
progress toward that 15-percent geographic requirement? Is 
there any public information that AT&T and/or FirstNet can 
share with us on this issue?
    Mr. Sambar. Thank you, Congressman.
    The 15 percent is a requirement contractually between AT&T 
and the FirstNet Authority. I will tell you, the network build 
is just beginning. So, I can't give you a number today because 
we haven't actually built it yet. But I have no problem in the 
coming months and years of providing that information, whether 
it is in this forum or in a different forum.
    Mr. Loebsack. Yes, we would like to keep track of that as 
we are progressing.
    Mr. Sambar. Yes, and we are happy to. What I will tell you 
is that, based on the network designs that we have today--and 
again, only half, just over half of the states have opted in--
but should all of the states opt in, or close to all of the 
states, we actually think we will exceed the 20 percent mark. 
So, 15 percent is the bare minimum that we need to attain. We 
are actually looking at over 20 percent at this point. So, we 
are very confident in our ability to hit that target and use 
those rural providers.
    Mr. Loebsack. As you both know, Iowa has opted in.
    Mr. Poth. Right, right.
    Mr. Sambar. Thank you.
    Mr. Poth. And it is important to note, also, that in our 
contract they are required to build out rural in each phase of 
the contract. They can't wait until the other areas that they 
wanted to build or built and, then, start rural. The next phase 
they have to have 20-percent rural buildout; the phase after 
that, 60 percent; 80, and all the way up to 100 percent.
    Mr. Loebsack. So, how do we define a rural partner in 
situations like this? How does AT&T define it or FirstNet 
define it?
    Mr. Sambar. I am going to give the quick answer, and he 
will give the detailed answer. We define it based on their 
definition, and he will tell you their definition.
    Mr. Loebsack. All right. Go ahead.
    Mr. Sambar. You are the boss.
    Mr. Poth. So, we required in the RFP that they identify 
rural TELCO partners in each of the states that they had 
intended to partner with. And then, that is what we are 
measuring them against, to make sure that those relationships 
have, in fact, been consummated.
    Mr. Loebsack. So, it is determined at the state level who 
rural is then? Is that----
    Mr. Poth. No, not at the state; at AT&T who, as all the 
bidders had to, identified rural partners in each of the 
states.
    Mr. Loebsack. Right.
    Mr. Poth. Some have multiple TELCOs that they may be using. 
We are measuring them against what they committed to in their 
proposal.
    Mr. Loebsack. I have to throw it back to you, Mr. Sambar.
    Mr. Sambar. Sure.
    Mr. Loebsack. So, how do you define rural?
    Mr. Sambar. Sir, I think you are looking for a definition 
of the word ``rural''?
    Mr. Loebsack. Yes, right.
    Mr. Sambar. FirstNet Authority defines, because we were 
curious when we signed the contract, FirstNet defines it based 
on the Rural Electrification Act.
    Mr. Loebsack. Right.
    Mr. Sambar. And it is 20,000 population in a given 
geography.
    Mr. Loebsack. OK.
    Mr. Sambar. So, we are following that definition.
    Mr. Loebsack. OK. Thank you so much.
    Mr. Sambar. Yes, sir.
    Mr. Loebsack. And to you, Mr. Sambar, does AT&T's rural 
partnership efforts include only wireless networks and towers 
or is AT&T also planning to leverage fiber-back, all assets?
    Mr. Sambar. Yes, sir, it will be wireless, wire line. That 
includes cable, microwave, and fiber. So, it will be all of the 
above.
    Mr. Loebsack. OK. Great. Thank you.
    Still some time left, Madam Chair?
    It will be essential that FirstNet is able to roam onto 
existing rural networks before the MPSBM is available. Mr. 
Poth, how are you ensuring that devices are developed that can 
successfully roam onto Tier 2 and Tier 3 rural wireless 
networks?
    Mr. Poth. That is a great question. I think I will defer to 
Mr. Sambar since they are the ones that have to implement the 
technology.
    Mr. Loebsack. A lot of deference today.
    Mr. Sambar. We do defer back and forth, don't we?
    [Laughter.]
    So, the way the wireless world operates today is you have 
no issue when you go into different areas around the country--
and I travel every week--whether it is a rural carrier in one 
area, and depending on what the backhaul is or the fronthaul 
with the wireless network; it doesn't matter. We will continue 
to do the same thing on the FirstNet network.
    And again, it is based on the 3GPP standards that I 
mentioned earlier. Those are international standards. So, 
whether you are on a domestic wireless network owned by AT&T or 
a rural provider or international--say you are in Mexico, South 
America, or somewhere in Europe--you will be able to roam on 
any provider's network and it won't be an issue.
    Mr. Loebsack. OK. And again, respecting the Chair's request 
that we finish up in a timely fashion, I do have a question 
about affordability, but I think we can probably submit that 
for the record.
    Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    And, Mr. Shimkus, you are recognized for 5 minutes.
    Mr. Shimkus. Thank you, Madam Chair.
    I am wondering how Loebsack got all my questions. How did 
you get my questions over there?
    Mr. Loebsack. I lucked out. I was before you.
    Mr. Shimkus. OK. Yes.
    Mr. Loebsack. Not normally am I, but----
    Mr. Shimkus. That is almost word for word. So, he covered a 
lot of the rural concerns that I had.
    But I guess I would want to follow up with the question of 
overbuilding that may occur. And that would be to Mr. Sambar. 
How do you protect from what we have seen, overbuilding in 
other areas and other aspects of communication? So, what about 
overbuilding?
    Mr. Sambar. Sure. Thank you, Congressman.
    I should have started off my comments with rural, which 
everywhere that I have traveled over the last year and a half 
around the country, whether it is a governor or the governor's 
staff, public safety entities, some of the gentlemen back here, 
the first responders--thanking them for coming--but some of 
them have mentioned it to me. You need to cover rural areas. 
So, we have gotten the message loud and clear. We absolutely 
understand that.
    We are embarking on an aggressive build plan to build out 
rural areas. Some of that will be AT&T building it, and some of 
it, that would be considered us building. And in some cases we 
will be using rural providers to build that out.
    The topic of overbuilding, the 15 percent was set because 
they believe that is an attainable goal. If our goal was to go 
and overbuild repeatedly, we would never hit the 15 percent and 
we surely would not a hit a 20-percent number, which is what we 
are projecting.
    There will be some cases where we can't come to commercial 
agreement with a rural provider, but in those cases we will 
look to other rural providers to see if they are interested, so 
that we can maintain that percentage with rural. So, our goal 
is to use rural providers as much as possible. In many cases 
their economics are better than ours, and it just makes sense 
for us to do that.
    Mr. Shimkus. Great. Thank you.
    Let me go to Mr. Stevens from New Hampshire. I pulled up 
the FirstNet website. So, maybe you can help explain this to 
me.
    The state has released a plan, and the state plan's review 
is under consultation. Is that how you view that?
    Mr. Stevens. Yes. Yes.
    Mr. Shimkus. So, part of this plan is your opt-out? That is 
part of the plan that you have submitted to FirstNet? Or using 
an outside provider other than AT&T?
    Mr. Stevens. No. We are in the process of reviewing all 
aspects in regards to opt in and opt out. No decision has been 
made by New Hampshire at this point in time. And basically, we 
are comparing the two plans, the alternative plan and the state 
plan provided by FirstNet, to ascertain what is best for New 
Hampshire.
    Mr. Shimkus. OK. Thank you. I appreciate that.
    Mr. LeGrande, AT&T and its partners did a bid for this to 
FirstNet, and then, obviously, they won the bid. In your 
opening statement are you proposing that the bid specifications 
should be now modified?
    Mr. LeGrande. No, I am not suggesting that the bid should 
be modified.
    Mr. Shimkus. As far as the responsibilities, the 
agreements, and what they are supposed to do?
    Mr. LeGrande. No. What I am suggesting, just so we are 
clear, that FirstNet, if we were to join a dedicated network, 
meaning when I say ``dedicated,'' I mean----
    Mr. Shimkus. No, we have got it. We have had that debate 
here. We did this because we didn't have the money and we 
wanted to leverage the success of the private sector.
    Mr. LeGrande. In fact, the exciting thing about it is there 
is a real opportunity where FirstNet can say, well, OK, I agree 
that you may not want to establish any contracts or agreements 
with the other carriers, but certainly try to meet with them to 
bring them and incent them. Take out the penalties from AT&T; 
incent them.
    When I was a CTO here, my biggest problem is I couldn't get 
these guys in my office because we are a small market piece 
now. The great thing about it, the great thing about what is 
going on with FirstNet is they have created an opportunity 
where FirstNet can act as a regulatory----
    Mr. Shimkus. I only have 50 seconds left.
    Mr. LeGrande. Right. Sorry. I'm sorry.
    Mr. Shimkus. So, I know you are very passionate.
    Mr. LeGrande. Absolutely.
    Mr. Shimkus. And I appreciate it.
    [Laughter.]
    Mr. Sambar, do you feel that some of these proposals may 
provide different goals and objectives than what was laid in 
the original bid?
    Mr. Sambar. I can't speak for the states and their goals 
and objectives. Over half of them have opted in, so they are 
completely aligned with our goals and objectives. When we go 
into the states, we negotiate with them on where they want 
additional infrastructure, where they want generators, what 
areas they want covered. And we leave the decision largely up 
to them. So, I think our goals are 100-percent aligned.
    I think there are some states that may have other goals in 
mind, not just a first responder network, but monetization, for 
example, to get money for the state budget. That is not what 
this is about. This is not a rural broadband initiative. This 
is for first responders, which does overlap into rural, 
thankfully. But I think we need to focus on first responders. 
That is what we are building this for. This is not a money-
making scheme. This is not a spectrum deal. This is for first 
responders for the next 25 years.
    Mr. Shimkus. Thank you very much.
    I yield back.
    Mrs. Blackburn. Mr. Pallone, you are recognized for 5 
minutes.
    Mr. Pallone. Thank you, Madam Chairman.
    FirstNet implementation is essential for creating a state-
of-the-art nationwide public safety network, and this is 
critical during emergencies. This week marks 5 years since 
Superstorm Sandy swept through my district, and the lessons of 
that storm are as applicable today as they were then. And 5 
years later, I can say there are three things we need to focus 
on to make sure we are better prepared for the next major 
storm.
    First, we need to keep our networks online during these 
emergencies, and that is why I drafted the SANDy Act to give 
our network operators the resources they need to repair our 
networks during disasters. And that is also why I worked with 
the wireless industry to create the Wireless Network Resiliency 
Cooperative Framework, to ensure people can call for help 
during an emergency, even if their network goes down.
    And second, we need to upgrade our 911 networks to be more 
secure and resilient and to handle the information required of 
a 21st century network. Among other things, that means ensuring 
that 911 knows your location when you place a call.
    And third, we need to get FirstNet operational as quickly 
as possible to give our first responders the tools they need to 
better protect us and coordinate emergency responses.
    I wanted to mention specifically that New Jersey was one of 
the first states to opt in, which makes sense, given 
JerseyNet's success as a proof-of-concept for FirstNet as a 
whole.
    So, I wanted to ask Mr. Poth, are there lessons learned 
from New Jersey's experience that can benefit the nationwide 
network?
    Mr. Poth. Absolutely, and New Jersey was a great example. 
The state did opt in. We have been working with them for years. 
But what actually happened with the recent hurricanes down in 
Florida, New Jersey, who had already opted in with their assets 
from JerseyNet, asked if they could respond down to Florida to 
help another state using those assets. So, the nationwide 
response for public safety was happening in real time. So, I 
think that was a great example of taking advantage of an early 
builder and of New Jersey's ``can do'' attitude, that really 
helped Florida with FirstNet assets that were residing in New 
Jersey. And we hope to see that that model replicates itself 
throughout the country.
    Mr. Pallone. Well, thank you.
    I wanted to clear up some questions about the bipartisan 
law that we passed in 2012 that established FirstNet. First, 
when Congress passed the law, we made clear that states could 
opt out of the wireless portion of the network, but they are 
prohibited from building a different core of the network.
    So, again, Mr. Poth, is that your understanding of the law 
as well?
    Mr. Poth. Yes, and, as it was discussed earlier, one of the 
other complications with any additional cores is around that 
cybersecurity. That is something that we cannot have any 
leniency. This must be a robust, secure network. But a single 
core is the intent, and that is what we are executing to.
    Mr. Pallone. Well, thank you.
    The second thing, when we passed the law, some of us were 
concerned about the way states divert 911 fees to other 
projects. And to stop that from happening to FirstNet, we 
required all fees raised by the states to be invested only back 
into the network.
    So, let me ask Secretary Moran, if I can, can you walk us 
through the financial considerations you took into account when 
Virginia decided to opt into the network?
    Mr. Moran. Well, first of all, in Virginia we don't raise 
fees. So, it's a low-tax state, very competitive for business.
    [Laughter.]
    So, Mr. Congressman, it was at no cost. That was one of our 
primary reasons for opting in, was that it was at no cost to 
the Commonwealth. In assessing and evaluating the options for 
the state to build out the network, it would have been cost-
prohibitive. And obviously, our primary responsibility, as 
yours is, is to provide that dedicated network to our first 
responder community. So, we saw the no cost being one of the 
primary factors to make that decision. So, there is no cost to 
the Commonwealth.
    Mr. Pallone. I don't know if anybody mentioned it; you look 
a lot like your brother, but you sound just like him when you 
spoke.
    Let me ask Mr. Sambar, going back to the three priorities I 
mentioned earlier--next-generation 911, network resiliency, and 
FirstNet--as the only carrier testifying today, what are you 
doing to further these goals?
    Mr. Sambar. So, your three goals, I will hit them in order.
    Networks online. If you use Hurricane Harvey in Texas as an 
example, at anytime we had no more than 4 percent of our 
network down at any given time throughout Texas. That is when 
the hurricane hit through the week following with the floods. 
So, we are pretty proud of our ability to keep networks online, 
and that is hundreds of thousands of people working very hard 
to keep the network going.
    Secondly, the 911 networks. AT&T is one of the largest 
carriers investing in the 911 networks or next-generation 911 
in the United States. And we feel really good about the natural 
synergies between the next-generation 911 that we are offering 
and the FirstNet network, and the ability to go from the call 
that the citizen is making into the 911 PSAP and out to the 
first responder over the FirstNet network. There is some real 
natural synergies there that work really well.
    And then, getting FirstNet up and operational, and that is 
possible by a big carrier like us. We do start with our 
commercial network as the foundation. So, states that have 
opted in, we already have subscribers signing up for FirstNet. 
They do start on our commercial core and our commercial 
network. They will graduate in March of next year to the 
FirstNet network, but we want to get it up and operational as 
soon as possible. We don't want states to have to wait 2, 3, 4, 
and 5 years.
    Mr. Pallone. Thank you.
    Mr. Sambar. So, I think that hits all your priorities, 
Congressman.
    Mr. Pallone. It does. Thank you.
    Thank you, Madam Chairman.
    Mrs. Blackburn. Mr. Johnson, you are recognized for 5 
minutes.
    Mr. Johnson. Thank you, Madam Chairman.
    And it is a really important hearing. I represent a 
district in Ohio that is very, very needy in terms of 
broadband. There are many places throughout my district where 
we have high school children who have to go to the neighboring 
town to get to a Tim Horton's or a Panera Bread, where there is 
wifi, so that they can do their homework assignments, or to a 
public library to get to a computer. Some schools even give out 
laptops, but the students don't have any connectivity to the 
outside world with which to do their work. So, it is a really, 
really important issue for me.
    And when you think about the opportunities and the 
economics of it, companies aren't going to come into a region 
and set up facilities if they can't get access to their 
customers, to their suppliers, recruit employees, et cetera, et 
cetera. So, the urban/rural divide is a very real thing from a 
broadband perspective.
    Mr. Sambar, first of all, thank you for your service. I 
appreciate that. I have a number of Navy SEALs in my district 
back in Ohio. I could probably throw their names out there. And 
I worked for Admiral Tom Steffens. I don't know if you remember 
him.
    Mr. Sambar. Yes, sir.
    Mr. Johnson. But he was my last boss when I was on active 
duty at Special Operations Command.
    So, thank you for your service.
    The buildout of rural broadband, obviously, is a priority 
of mine. I have held multiple roundtables in Ohio to discuss 
with stakeholders the benefits and challenges of broadband 
deployment.
    If a state such as Ohio opts into FirstNet, how will it 
impact the broadband buildout in rural areas?
    Mr. Sambar. Thank you, Congressman. Thank you for your 
service as well, especially helping my brothers and sisters at 
the Special Operations Command.
    Mr. Johnson. You bet.
    Mr. Sambar. I appreciate that.
    So, as I mentioned earlier, it is not a rural broadband 
initiative, but the benefits for rural customers and those in 
rural areas are unbelievable when it comes to FirstNet. And I 
will give you a specific example. I won't give you the state.
    But a state in the South that has opted in, one of the main 
requirements that they put on us was they said, ``We want every 
school in our state covered with coverage, wireless coverage.'' 
And they are not all today. They told us specifically which 
schools were not covered, and we went out and did wireless 
surveys to ensure that they were. And they said, not only do 
first responders go to those areas, but in a lot of those areas 
those are the severe weather centers where people evacuate to. 
So, we said, absolutely, and we fulfilled that requirement for 
the state.
    So, this goes back to the flexibility of the program and 
the ability of the states to negotiate where they want the 
incremental coverage. The public-private partnership between us 
and the FirstNet Authority makes it possible. You noted the 
challenging economics in some cases to cover rural areas. The 
economics of this program make that less challenging and easier 
for us to do, so that we can fulfill the requirements and the 
desires of the states.
    Mr. Johnson. Sure, and I am sure I don't have to tell you 
and the rest of the panel how important first responders being 
linked in is to a rural community. I mean, it takes a long time 
sometimes to get from point A to point B when something goes 
down, whether it is a natural emergency or criminal activity, 
or whatever, an accident, whatever that may be. Having first 
responders as a part of that is critically important.
    For the entire panel, first and foremost, we must provide 
our first responders with a reliable network and the tools they 
need to prepare for and respond. We just talked about that. Can 
you describe the benefits for first responders in rural areas 
if the state chooses to opt into FirstNet? Let's just go down 
the line here.
    Mr. Poth. Through our exhaustive proposal process, we set 
out a solution to do just that for public safety, all 56 states 
and territories where there is rural or urban. And we are 
absolutely confident that through the solution that we have 
picked, based on public safety's feedback and the solution 
provider, in this case AT&T, we will be able to meet that 
objective.
    Mr. Johnson. OK. Anybody else care to address that one?
    Mr. Sambar. Sure. I will give you 10 seconds of your 17 
seconds.
    Mr. Johnson. OK.
    Mr. Sambar. The benefits to the state of jobs and 
infrastructure, the rural broadband benefits to the state, and 
then, features like priority, preemption, mission-critical 
voice, all those things that public safety has been asking for 
for years.
    Mr. Johnson. Do you view it as a negative? If a state 
chooses to opt out, will it be a negative impact to first 
responders if a state opts out?
    Mr. Sambar. I think there are some significant challenges 
if a state chooses to opt out. Of course, we will be happy to 
work with them. That is our charter, and we will do everything 
we can to be interoperable with that state. But there are some 
challenges as far as the time it will take them to build it 
out, the reliability/redundancy of that network, 
interoperability, security of that network. There are some 
significant hurdles that they need to get over. Again, we are 
happy to work with them, but I think there would be a lot of 
concerns there.
    Mr. Johnson. All right. Well, thank you, gentlemen.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo, you are recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    Thank you to all of the witnesses and to the first 
responders here. With all due respect to everyone else in the 
room, including myself, I think you are the most important ones 
here.
    When the 9/11 Commission made its recommendations to 
Congress, which is a very long time ago now--we have been at 
this for some time; it was 16 years ago that the country was 
attacked--there was one recommendation that Congress had not 
made good on, and it was to build a nationwide interoperable 
public safety network. And I was bound and determined that we 
would get that done. I am proud of the legislation, proud that 
we moved ahead, and that the Congress passed it.
    But I think that, in light of what the country has 
undergone in just the last handful of months, and most recently 
in my home State of California--I spent last Saturday from 6:30 
in the morning until 9:30 at night touring, meeting with the 
public officials, public safety officials, first responders, 
victims, in Sonoma and Napa Counties.
    I really think that we need to go back to the air raid 
system because there really wasn't anything that worked or 
very, very little. And this is the second decade of the 21st 
century. So, we have a lot of work to do.
    In California, relative to AT&T's existing coverage 
throughout the state and the interoperability of the public 
safety broadband network with other cellular networks, how is 
AT&T dealing with coverage areas where you are not the dominant 
carrier in that area? Just very quickly.
    Mr. Sambar. Yes, Congresswoman.
    So, we are in the process of negotiating with California. 
As you know, they haven't opted in.
    Ms. Eshoo. I know that.
    Mr. Sambar. We are in the process of negotiating.
    Ms. Eshoo. They have some problems with you. But how are 
you dealing with coverage areas where you are not the optimum 
and others are?
    Mr. Sambar. So, we have given them a significant number of 
sites that they can move around in the state and give us 
priority areas, so that we can cover those areas that are not 
covered today where other carriers are dominant. In those areas 
where other carriers are dominant----
    Ms. Eshoo. Now wait a minute. What does that mean?
    Mr. Sambar. That means we are----
    Ms. Eshoo. You want the state to tell the ones that are 
more dominant than you what?
    Mr. Sambar. No.
    Ms. Eshoo. Tell me how that works.
    Mr. Sambar. We are going to build big cell towers in the 
places where we don't have coverage, so that we can cover 
ubiquitously throughout California to give them the coverage 
they are asking for. California has come to us and said, ``We 
need coverage in these areas.''
    Ms. Eshoo. OK. All right.
    Mr. Sambar. And we said, OK, we will build those areas out.
    Ms. Eshoo. How are you going to ensure interoperability 
with the public safety network with the jurisdictions that use 
other networks?
    Mr. Sambar. So, just like we do today, if you have a 
different carrier than I have on my phone, we can talk to each 
other. That is called interoperability. And we will maintain 
that in the future. This will not be a locked-in proprietary 
network.
    Ms. Eshoo. Why are there penalties? Did the Congress do 
that or is it part of your contract? It is my understanding 
that in California's case, I think relative to the RAN, the 
penalty would be in the area of $15 billion. Who came up with 
that? How do you make that determination?
    Mr. Poth. No, that----
    Ms. Eshoo. And why are there penalties?
    Mr. Poth. Excuse me. There aren't any penalties right now. 
What that $15 billion----
    Ms. Eshoo. Well, that doesn't make me feel too good.
    Mr. Poth. Right.
    Ms. Eshoo. You just said ``right now''. Are there going to 
be? And where did this $15 billion, approximately, come from?
    Mr. Poth. So, that was FirstNet's attempt at trying to make 
sure in our full transparency. So, in the State of California, 
as we talked about earlier, if they opt out and they have a 
problem where they have to default and they are not able to 
continue to work, the estimates could be as high as that 
number.
    Ms. Eshoo. But I don't understand. Is this a penalty for 
not opting in?
    Mr. Poth. No, absolutely not.
    Ms. Eshoo. Well, what is it for?
    Mr. Poth. So, we have tried to share with the states what 
we thought, because of this very involved, complex project, if 
we had to reconstitute the network from zero after a state, 
implementation didn't work, that it could be as high as that. 
That is where I have said earlier, and I qualified, we are 
working with every state, including California, to minimize any 
of those impacts. And hopefully, they would never even get to 
that point.
    So, in our zeal to make sure that----
    Ms. Eshoo. But why even talk about penalties? Obviously, if 
something doesn't work, the state is going to be responsible 
and has to build up a system.
    Mr. Poth. That is what that number is. It is not a penalty 
or fine if someone opted out and weren't able to complete it.
    Ms. Eshoo. Let me just ask--thank you for your leadership--
--
    Mr. Poth. Right.
    Ms. Eshoo. Did you say, Mr. Sambar, that AT&T does not make 
any money on this?
    Mr. Sambar. No, I----
    Ms. Eshoo. You said, ``We are not in this for profit.''?
    Mr. Sambar. We are a----
    Ms. Eshoo. It is a wonderful notion, but it is a real----
    Mr. Sambar. That would be nice, it would be nice if we were 
a philanthropist, but----
    Ms. Eshoo. It is a stunner to me.
    Mr. Sambar. Yes, we have shareholders that we are 
accountable to. So, yes, we do have to make a profit off of it. 
So, it is profitable.
    Ms. Eshoo. But why did you say it is not----
    Mr. Sambar. It is a public-private partnership, and our 
primary commitment going into this wasn't to make money.
    Ms. Eshoo. All right. All right. Yes. Well, OK. Good.
    It is great to have a Moran here.
    [Laughter.]
    Either over there or at this part. It is just wonderful. 
Thank you for your leadership in the state.
    Thank you, Madam Chairwoman.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Madam Chair.
    There is nothing wrong with making money. It is capitalism.
    I want to thank you, Chair, for yielding and for holding 
this hearing. And given the events that unfolded yesterday in 
New York that are currently being investigated as a terrorist 
attack on our country, I think this hearing is especially 
timely today.
    Broadly speaking, we need to get this system operational 
and running efficiently, so that we can respond to both natural 
disasters and, frankly, the next attack that is going to happen 
in the future. We know this is a generational fight we find 
ourselves in the middle of. It will probably last for the rest 
of my lifetime.
    But, in that vein, Mr. Sambar, during recent emergencies, 
cell towers have become overwhelmed by the volume of calls and 
texts. Will first responders avoid similar communications 
hurdles using the network that AT&T and FirstNet are planning 
to deploy?
    Mr. Sambar. Thank you, Congressman.
    Yes, that is exactly one of the primary purposes of this 
network. It is so that first responders are not on the typical 
commercial networks, subjected to the same congestion that they 
would be otherwise subjected to on a commercial network.
    So, there are two features called priority and preemption. 
Priority means that their data goes faster than anyone else's. 
So, if they are trying to get a picture of a subject to another 
first responder to let them know what is going on, if they are 
trying to get a picture of a fire to a fire captain, so that he 
knows the nature of the fire, how many engines he needs to 
send, that data will go uninterrupted through the network. That 
is priority.
    Preemption, the next one, means that, if a first responder 
is trying to get on the network and it is congested, which can 
happen any time you have a crowd of people in an area, 
preemption will actually move someone on our commercial network 
off to another frequency band on our commercial network, and 
allow that first responder on immediately. The only call that 
it won't preempt is a 911 call. So, we will not take regular 
commercial citizens and kick them off if they are on a 911 
call, but it will preempt other users off. So, they will have 
an uninterrupted network experience.
    Mr. Kinzinger. Excellent. That is really good to hear.
    Switching gears a bit, Mr. Poth, with regards to the lease 
terms that FirstNet sent to the states, is there a process for 
appealing FirstNet's terms or are these effectively ``take it 
or leave it''? And how did you develop those terms?
    Mr. Poth. So, the spectrum management lease is just a 
draft. We tried to provide that information early, so the 
governors and their teams could review what would be a working 
document that we would negotiate probably 2 years from now. 
Unfortunately, based on the statute and the regulatory 
requirements that first go into the FCC for approval of an 
alternative plan, then to NTIA, literally, it would be probably 
about 2 1A\1/2\ years. So, this was just a draft of some of the 
concepts that are important as the license-holder, FirstNet, to 
be able to lease that portion of the spectrum to a state. So, 
absolutely, we are going to work with the states now and 
through this entire process to make sure that they feel 
comfortable and their questions are answered.
    Mr. Kinzinger. So, it is not ``take it or leave it''? You 
are saying this is an early draft and----
    Mr. Poth. Yes, this is a working draft because we wanted to 
provide--we didn't want states to get through a 2 1A\1/2\ year 
process and, then, start looking at terms and say, ``Well, why 
didn't you tell us this 2 1A\1/2\ years ago?''
    Mr. Kinzinger. OK, and I understand that NTIA has yet to 
issue a Notice of Funding Opportunity, which would, presumably, 
provide the states with detailed information regarding the 
process that NTIA intends to use in its review for state 
applications for spectrum and construction grants. States now 
have less than 2 months to make a decision on opting in or 
opting out, and they are missing some pretty important data. 
When is NTIA going to release that notice?
    Mr. Poth. Talking to NTIA as recent as yesterday, they have 
published those into the system and it is going through 
clearance. So, they hope within the next few days it will come 
out, that guidance.
    Mr. Kinzinger. OK. Hopefully. That would be good.
    And last, let me ask you, in the FirstNet press release 
dated June 19th of this year it stated that the FirstNet state 
plan ``comes fully funded and will require no additional 
resources for the states to deploy or operate the network.'' It 
would seem, then, that opting into FirstNet is more economic 
for states than opting out. However, there are still some 
unanswered questions with respect to processes and 
determinations that have been made. In order to fully ensure 
that FirstNet is the best and most economic option, we do need 
more answers. So, will you commit here today that you will work 
with Congress, the states, and stakeholders, to provide these 
answers to the best of your ability?
    Mr. Poth. Absolutely.
    Mr. Kinzinger. Excellent.
    Mr. Poth. We have met with some states over 30 times over 
this process, and we are going to continue to do that for the 
life of this program, to make sure that all their questions are 
answered, no matter what.
    Mr. Kinzinger. Great.
    And to the five of you, thank you for being in here. Thanks 
for giving us your time.
    And with that, I will yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are recognized.
    Mr. McNerney. Well, I just want to say to the Chair that I 
appreciate enforcement of the 5-minute rule, being on the lower 
end of the committee here.
    Mr. Poth, we have recently seen a series of natural 
disasters in California, flooding, earthquakes, and wildfires, 
including the devastating wildfire we had a couple of weeks ago 
in which 120 cell phone towers, cell towers, were down and 
destroyed. In planning and building out and hardening this 
system, the resiliency of the system, how does FirstNet plan to 
account for those types of disasters?
    Mr. Poth. We require of AT&T via the contract that the 
installations are public safety hardened. And how we are 
measuring that is against reliability and up time. But, even 
with that, unfortunately, Mother Nature, in particular, no 
matter what hardening is done, can affect those towers.
    One of the other requirements that we have is--and Mr. 
Sambar alluded to it--deployables and the ability to quickly 
recover into an area. They are contractually obligated 
throughout the 56 states and territories in those areas where 
their existing assets go down to restore the network as quickly 
as possible.
    Mr. McNerney. OK.
    Mr. Poth. And we are going to hold them to that.
    Mr. McNerney. Thank you.
    Mr. Sambar, do you plan to provide ways to ensure that 
communication continues when cell towers go down during the 
process, before the minis can be in place?
    Mr. Sambar. Absolutely. As Mr. Poth mentioned, reliability 
and up time on the network is our priority. So, whether that is 
something happens to the tower, which that will always happen--
you can't keep a tower from burning up, right? That is going to 
happen. But the deployables, as you mentioned, I actually have 
a picture of one here in the wildfires in California. So, this 
is a mobile, 1-ton truck that you pull out----
    Mr. McNerney. So, you are saying that that can be in place 
almost immediately?
    Mr. Sambar. Yes, it is. You can see the fire in the 
background. So, this was actually put up immediately after the 
fire passed through, burned the tower down. We drove this in, 
so that the first responders in the area had communications.
    Mr. McNerney. Very good.
    Mr. Sambar. Thank you, sir.
    Mr. McNerney. All right. Device security, which you have 
already responded to, to a certain degree, to the chairwoman's 
questions, it is very important to me. I introduced a bill, the 
Securing IoT Act, which requires that cybersecurity standards 
and certifications be established for wireless devices. What 
cybersecurity or industry standards or guidelines is AT&T 
considering in developing FirstNet?
    Mr. Sambar. So, similar to my response earlier, just to 
recap, the cybersecurity starts at the device level, the 
applications on the device as well as the device itself. So, 
AT&T will be certifying all the devices. The FirstNet Authority 
has a lab in Boulder, Colorado. They will certify the devices 
as well.
    Mr. McNerney. So, what standards are they using?
    Mr. Sambar. AT&T has our own proprietary standards. 
FirstNet has developed their own proprietary standards that 
they will be certifying the devices based on.
    Mr. McNerney. So, is there any acceptance of those 
standards?
    Mr. Poth. Yes, and what the FirstNet standards were drawn 
from is with NIST, the Department of Justice, OMB, DHS, and 
some of our fellow federal agencies to make sure. We are also 
capitalizing and requiring that AT&T bring private sector best 
practices to bear on the cyber approach, too.
    Mr. McNerney. OK. Well, I understand that volunteers, first 
responders, can bring their own devices?
    Mr. Sambar. Yes.
    Mr. McNerney. What steps are going to be taken to make sure 
those devices are cyber-secure?
    Mr. Sambar. So, they can bring their own devices, and it is 
up to them what device they use. If they are purchasing an AT&T 
device, again, it will be certified and they will know that. 
The applications on that device are definitely a point of 
vulnerability, and we will be certifying all the applications, 
putting them into a public safety application store, so that 
they can ensure that an application in that store is secure 
from a cybersecurity standpoint, as well as it functions 
correctly.
    Mr. McNerney. Thank you.
    Mr. LeGrande, do you believe that FirstNet with AT&T can 
ensure competition at every level?
    Mr. LeGrande. I think they have the opportunity to do that. 
I think we should not treat this like it is, again, a dedicated 
public safety broadband network. I think we set up a 
competitive environment, in that FirstNet leverages its 
position to, again, incent other carriers. To wildfires, to the 
hurricanes, the bottom line is what is in the best interest of 
public safety is all the carriers competing to drive down costs 
and create the best possible environment. So, I think they are 
in a very good position to do that, yes. That would be my 
answer.
    Mr. McNerney. Do they need additional incentives to make 
sure that they assure competition?
    Mr. LeGrande. I think that FirstNet has the opportunity to 
reach out beyond AT&T. They have got their contract with AT&T 
continuing. I am not questioning that. But there is an 
opportunity to embrace the other carriers and say, ``Look, if 
you come up with these levels of standards and you bring your 
networks up to this, then we can have all of these guys 
competing.'' Because, again, the best thing for public safety 
is low cost and greater innovation, and competition is what 
gets us there.
    Mr. McNerney. Thank you, Madam Chairman. Thirteen seconds.
    Mrs. Blackburn. You are doing well.
    Mr. Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it. I 
will stay under the 5 minutes as well. No guarantees, though I 
will try. Thank you again for having this hearing.
    Governor Scott, my State of Florida has issued a Notice of 
Information to review the FirstNet proposal as compared to 
other options the state may have. While we do not know the 
outcome of this inquiry, I do support the governor's due 
diligence to subject the proposal to competition in the 
marketplace and ensure it is right for our state.
    My question is to Mr. Sambar. I am a representative of a 
coastal community in the Tampa Bay area, and it is subject to 
hurricanes, as you know, with limited evacuation routes, 
unfortunately. I am intrigued by the shifting of first 
responder priorities you discuss in your written testimony. Can 
you elaborate on the benefits of the selective ability to at-
risk communities such as mine, please?
    Mr. Sambar. Absolutely, and I believe you are referring to 
the priority and preemption services. Those are actually 
features that will be in the network. Priority exists today. We 
have been providing that to commercial customers for 2 years 
now.
    Preemption is a new feature that will only be available for 
first responders, and that will be by the end of this year. 
Preemption is really the one that first responders have been 
asking for. And that provides the ability in an area where a 
network is congested, if it is a coastal community, prior to, 
during, and after a storm, and there is a significant amount of 
congestion. Maybe some of the towers aren't working properly. 
There is a limited amount of bandwidth. It ensures that first 
responders have first rights to that bandwidth. So, they can 
actually move others off of a network, and they will have a 
seamless network experience wherever the network exists. So, a 
terrific benefit for first responders who have been asking for 
it for a long time, and we are going to be providing that to 
them very soon.
    Mr. Bilirakis. Very good. Thank you.
    Mr. Stevens, under the 2012 act that authorized FirstNet, 
Congress directed FirstNet to develop a plan for each state to 
deploy the network. From your perspective, has there been 
sufficient engagement from FirstNet with the states?
    Mr. Stevens. Yes. We have had good conversations with 
FirstNet along with AT&T along the process. However, we took 
advantage of the opportunity that the law provided that we 
would go down the road by developing an alternative plan. As 
you said, sir, New Hampshire has done its due diligence and we 
have two viable plans that we are looking at for comparison.
    Mr. Bilirakis. Very good. Thank you.
    And I will yield back, Madam Chair. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Matsui, you are recognized.
     Ms. Matsui. Thank you, Madam Chairman, and I thank the 
witnesses for being here today.
    As you know, the FirstNet contract requires a 25-year 
performance period. That means that the life cycle of this 
contract will see the deployment of next-generation wireless 
broadband networks for both consumers and first responders.
    Mr. Sambar, could you discuss how auctions that would 
deliver spectrum suitable for 5G networks also could be 
critically important for the continued upgrades necessary for 
the first responders on your network?
    Mr. Sambar. Thank you, Congresswoman. I appreciate that 
question because, when the RFP was initially written by the 
FirstNet Authority, it spoke to the Band 14 spectrum, that one 
piece of 20-megahertz spectrum that was allocated, and putting 
up that spectrum and making that available to public safety. 
And we changed it around a little bit, and we said, yes, we 
will do that and we are going to cover a significant percentage 
of the population with it, but we are also going to make 
available all of our spectrum bands.
    So, as we move into a 5G world, millimeter wave technology, 
small cells on street corners, the first responder may connect 
to Band 14 on a tower a quarter mile or a half mile away, but 
they may connect to the street corner small cell, which is a 5G 
small cell. It may not be Band 14. It may be something else, 
but it may give them 10 times the speed that they would have 
had on the Band 14 connection a quarter or a half mile away. 
So, we are really opening up our network, so that first 
responders have the best possible connection.
    Ms. Matsui. OK. OK, great.
    Mr. Moran, what is the importance of deploying next-
generation wireless broadband networks to states?
    Mr. Moran. Well, it is critically important, as has been 
noted throughout this hearing, to provide our first responders 
the latest and greatest technology. It is critical to 
responding to what is an expanding and even more dangerous 
threat environment. Being in this position, recognizing whether 
it be natural disasters or hurricanes and tornadoes, to now 
more manmade disasters, if we can provide our first responders 
with the technology, and the firefighters the location 
technology, they can be in a building and be located 
immediately, as well as the victims that might be present. I 
mean, it is critically important.
    So, that is why we opted in, because we just saw the 
positive benefits and with no cost. And so, though we 
thoroughly reviewed the decision, we think it is the right 
decision.
    Ms. Matsui. OK. Thank you.
    Mr. McNerney talked about the wildfires that cut through 
northern California, which we visited this last weekend. In my 
district we also have quite a few flooding risks also. And 
California is currently in a review process and considering how 
to evaluate its decision.
    Mr. Poth, what network assets will FirstNet be able to 
provide that will assist first responders in my district to 
meet such a diverse set of emergencies, such as fires and 
extreme flooding? I mean, we have both.
    Mr. Poth. Right.
    Ms. Matsui. And maybe in earthquakes, too. So, you never 
know.
    Mr. Poth. And that is part of the process that the state is 
looking at right now and the proposals that we have on the 
table that AT&T is working with. The state has also identified 
those areas that are high risk to them because they are 
responding to those areas. Based on that feedback from public 
safety, the people that are actually having to do the work, is 
what is informing AT&T's solution as to where to put fixed 
assets or to ensure that there is closer responsive 
deployables.
    Ms. Matsui. All right. OK. Thank you.
    Now, with FirstNet having delivered plans to states at the 
end of September, governors and state single points of contact 
are currently reviewing FirstNet's maps of wireless broadband 
coverage. A critical piece in the success of FirstNet is its 
ability to provide public safety officials and first responders 
with access to communications in even the most rural and remote 
areas of our states and districts. These maps must represent 
where coverage does and doesn't exist, so these areas are not 
left behind.
    Mr. Poth, what steps did FirstNet take to ensure these 
coverage maps are accurate? And is it possible to use the 
lessons learned from that effort to furnish the committee's 
larger efforts to gather more accurate broadband data?
    Mr. Poth. Yes. So, we have been, for the last 3 years, in 
particular, but since the inception of FirstNet, working with 
all the states to understand their coverage, their perception 
of coverage, and what the actual coverage they believe. Now, 
with the plans, we delivered earlier, 3 months prior to the 
actual September date, drafts of those plans with the coverage, 
so that they could start seeing it to validate against what 
they know. And that is what has been driving a lot of the 
conversations as to where they want it to go and what they need 
to do.
    We are using those coverages, and, ultimately, it will be a 
buildout. It is not going to be day one where all the coverage 
needs are met. It won't even be met by year five, but it will 
continue to grow. And that is what the states are looking at.
    Ms. Matsui. OK. Thank you very much.
    And I yield back.
    Mrs. Blackburn. Ms. Walters, you are recognized for 5 
minutes.
    Mrs. Mimi Walters of California. Thank you, Madam Chairman. 
Thank you to the subcommittee for holding this hearing and for 
our witnesses for their testimony,
    My home State is California as well, and I know that many 
of my colleagues have discussed that we are particularly 
susceptible to widespread natural disasters, including 
wildfires, earthquakes, and flooding. As you all know because 
we have been discussing it in recent weeks, California 
experienced the most devastating wildfires in the state's 
history. Forty-three people died, nearly 9,000 structures were 
destroyed, and it will take years for the areas impacted by the 
fires to fully recovery. Canyon Fire 2, which occurred in my 
district, required the evacuation of thousands of residents.
    California is vulnerable to both natural disasters and 
terrorist attacks. Given the size of the state and its large 
population, it is critical that California's first responders 
have a reliable public safety network.
    And one of the problems of sitting in this front row is 
that many of your questions get asked already because you are 
low man on the totem pole. So, I am going to ask Mr. Sambar, do 
you have any comment on the testimony you have heard here today 
from your colleagues or the statements filed by others in this 
hearing?
    Mr. Sambar. Generally speaking, I appreciate the dialog. 
There was some testimony submitted by Verizon at the beginning, 
and I know it was not read out today. But there are a couple of 
points in there that I think are important to address in front 
of this committee.
    One is the interoperability of core networks. I think we 
have beat that horse to death. But serious reasons why 
cybersecurity becomes an issue when you interoperate the cores. 
And that won't be allowed, it doesn't sound like, not by our 
rules, but by others, including the original legislation.
    There is also a portion of this testimony where--and I will 
quote from it real briefly here--``The FirstNet RFP was 
established as a spectrum deal''. And further quoting, ``We 
have never had an interest in FirstNet's spectrum and could not 
justify the investment required to build out spectrum that we 
had no intention of using commercially.'' So, this is from 
Verizon's testimony.
    I personally take exception to this. So, it was noted 
earlier my military service. I spent 23 years between active 
and Reserves in the military. This job and this task is 
personal to me. This is not a spectrum deal.
    To the Congresswoman's point earlier, AT&T is going to make 
money off of it. We are a for-profit company. I am not trying 
to hide that fact. But this isn't about the spectrum and a 
spectrum deal. This is about serving first responders, the 
folks that are behind me. We are building something really 
special here, and we are giving them something they haven't had 
in a long time, that the 9/11 Commission said that they needed, 
that you said that they needed. And that is what we are doing 
here.
    So, I just want to set a level playing field and let 
everyone know this isn't a spectrum deal. That is really not 
the right way to talk about this. We feel very passionately 
about that.
    Mrs. Mimi Walters of California. OK. Thank you.
    Mr. Sambar. Yes.
    Mrs. Mimi Walters of California. Mr. Poth, in addition to 
having to cover termination fees, in the case of California, as 
it was reported, to spend $15 billion, are there any potential 
risks of a state opting out of FirstNet?
    Mr. Poth. The risk is not whether they opt out or opt in. 
If they opt out, we are going to do everything we can to make 
them successful. The risk is that the state that pursues an 
opt-out truly has a robust solution with financial 
sustainability. Twenty-five years is a long time, and this is a 
very complex project. Billions of dollars are being spent. We 
are investing; the Congress has allowed us to invest $6.5 
billion in the spectrum. So, this is not a trivial exercise. 
And the length of the program and the complexity create a risk, 
but it is something that FirstNet realizes and we will work 
with the state, whether they opt in or opt out, for the next 25 
years to make them successful. But the integration and the 
complexity and the delays of an opt-out state just by statute 
complicate matters certainly.
    Mrs. Mimi Walters of California. Thank you.
    And I yield back the balance of my time.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Engel, you are recognized for 5 minutes.
    Mr. Engel. Thank you, Madam Chairman.
    Thank you to all the witnesses.
    And let me start with Secretary Moran. Virginia was the 
first state to opt into FirstNet. And Virginia, like New York, 
has withstood some devastating and high-profile disasters over 
the years. So, let me ask you, now that Virginia has opted in, 
what additional tools will it have to respond to these 
disasters?
    Mr. Moran. Well, I referenced the ability of Fairfax County 
and their fire, when they went to Houston to respond to 
Hurricane Harvey, and some of the additional technological 
benefits that are obtained from the FirstNet opt-in.
    But I would say, I very much appreciate this hearing 
because it has brought to mind all of the issues with respect 
to our opt-in decision, all the things we discussed. But we 
need to maintain vigilance, and I say ``we'' in terms of 
Congress has to be vigilant because this hearing has identified 
a number of ongoing discussions we are having with AT&T.
    And I would second Mr. Stevens' point that their 
availability to us has been excellent. And we have had those 
discussions, the rural concerns. But having access to what they 
are offering is critical to being able to respond to the ever-
increasing and emerging threats. So, we just have to make sure 
that relationship with AT&T remains robust, so that we can have 
access to all what they have promised.
    Mr. Engel. Well, talking about the various tools, when 
would you expect to see those tools come online?
    Mr. Moran. Congressman, one of the reasons we adopted so 
quickly in July is because Fairfax and other localities that 
already had access to AT&T could immediately gain access to the 
expanded broadband capabilities. And so, some of that has gone 
on.
    Now, in full disclosure, AT&T does not have the coverage of 
other providers in Virginia. And so, it has to be a significant 
buildout of the AT&T services in Virginia for all of our 
localities to be able to benefit.
    Mr. Engel. Thank you.
    Mr. Poth, I have a few questions for you. For states that 
decide to opt out, I understand that FirstNet will require 
those states to meet certain subscriber targets. I guess that 
is true, right?
    Mr. Poth. Yes. What we are trying to achieve is the purpose 
of this is for public safety, and we are not requiring the 
states, but the state's contractor to make sure that the 
solution that they provide will meet public safety's needs in 
that state and that they adopt to be able to take advantage of 
this nationwide interoperable network.
    Mr. Engel. How closely do the state requirements mirror 
AT&T's requirements in the national contract?
    Mr. Poth. They are very comparable, absolutely.
    Mr. Engel. Comparable with what?
    Mr. Poth. We are not asking the state any more than what we 
require of AT&T currently, but it is under contract.
    Mr. Engel. What if a state falls short? What penalties will 
they face?
    Mr. Poth. We had the discussion a little. That is 
impossible for us right now to try to determine. We have tried 
to place a range, but we don't know what the nature of a state 
that would have a default. We don't know what the technology 
will even be, say, in year 12. So, the only thing that I can 
absolutely say for sure is that we will be working with the 
states during that entire time, and if there is a problem or a 
default, then we will work with them quickly to try to recover 
and restore that network at the minimal impact to all, on 
behalf of that state and public safety.
    Mr. Engel. Now FirstNet was started within the National 
Telecommunications and Information Administration, which is 
part of the Department of Commerce. Am I correct about that?
    Mr. Poth. Yes. Yes, sir.
    Mr. Engel. Yes. So, the legislation that created FirstNet 
envisioned it being spun off to operate independently at some 
point in the future, is that true?
    Mr. Poth. Well, I am not sure it was ever intended to be 
completely spun off, but we are an independent authority and we 
work very effectively with our partners at NTIA and Commerce 
and all the other federal agencies.
    Mr. Engel. So, can you briefly discuss the pros and cons of 
FirstNet operating as an independent entity?
    Mr. Poth. Well, we have had a lot of flexibility and speed 
to deployment that we like to say because of this procurement. 
Although people may argue it has been impossibly long since the 
statute was passed, we have accomplished a great deal in a 
short time, and we attribute a lot of that to the independence, 
that we are able to work within the rules and requirements in 
the federal government, but in a much more quick and nimble 
way.
    Mr. Engel. Are we reaching that point in the near term as 
an independent entity?
    Mr. Poth. I don't see a particular need right now because I 
think we are addressing all the needs to make the states and 
public safety successful, and we are certainly in a position to 
make AT&T successful within the constrains of the contract.
    Mr. Engel. So, what needs to happen first if we are not 
there yet?
    Mr. Poth. I think the thing that we need to do is we have 
got to execute. We have got to make sure, on behalf of the 
federal government and public safety throughout this country, 
that the promise is actually fulfilled. And we think we have a 
good way of achieving that through this contract.
    Mr. Engel. Thank you.
    Thank you, Madam Chairman.
    Mrs. Blackburn. The gentleman yields back.
    Before I conclude, I ask unanimous consent to enter a list 
of documents into the record: an op-ed from Thomas Manger; a 
letter that was submitted by Mr. Doyle by Verizon; a letter 
from Governor Sununu of New Hampshire to his fellow governors; 
Governor Sununu's FirstNet Executive Order; a letter from the 
Competitive Carriers Association; chairman and ranking member's 
statements for the record; Mr. Sambar's picture--we need that--
of the mobile tower in front of the wildfire, and the 
International Association of Fire Chiefs' letter. Without 
objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Seeing there are no further members wishing 
to ask questions for the panel, I want to thank all of you for 
being here today.
    Pursuant to committee rules, I remind members that they 
have 10 business days to submit additional questions for the 
record. And I ask that witnesses submit their responses within 
10 business days. Seeing no further business before the 
subcommittee today, without objection, the subcommittee is 
adjourned.
    [Whereupon, at 12:31 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
